No. 19-972
IN THE

~upreme QI:ourt of tbe ~niteb ~tates
CHRISTOPHER EDWARD MCMILLEN
AN INCAPACITATED PERSON,

v.
NEW CANEY INDEPENDENT SCHOOL DISTRICT,

Petitioner,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Reply
Brief for Petitioner in McMillen u. New Caney Independent School District, No.
19-972, complies with the word limitations, as it contains 2,997 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: May 4, 2020

